:

No

r

3fo Wf)e

ii

r --

<"
■'

Supreme Court of the ®niteb Stated iL£iSv...
BARBARA MURRAY,
Petitioner,
v.
ELIZABETH A. FRY as the Executrix of the Estate
of Fry, James E. and The Estate of James E. Fry
(Correct name The Estate of James W. Fry),
Respondents.

On Petition For Writ Of Certiorari
To Connecticut Supreme Court

PETITION FOR WRIT OF CERTIORARI

Barbara Murray
Pro Se
5 Shelia Lane
Westport, CT 06880
203-979-1153

■; C SK

1

QUESTIONS PRESENTED
1. Does the Seventh Amendment to the U.S. Con­
stitution require a jury trial in a civil eviction case,
which is based on equity to an elderly petitioner who
is scheduled to be evicted 12/28/2020 in the middle
of a national health crisis, under a false factual find­
ing that she did not pay rent, when in fact she did
pay rent and the judicial officer and the appellate
courts of Connecticut refuse to acknowledge the false
factual finding which is the basis of an eviction sched­
uled for 12/28/2020?
2. Does the Due Process Clause of the Four­
teenth Amendment require Connecticut court judges
to issue factually correct judicial findings, or thereafter
to correct a false factual finding and mitigate damage
by either the trial court judge or appellate when mate­
rial mistakes of fact occur?
3. Does a judge who refuses to acknowledge lack
of subject matter jurisdiction, no actual injury, non­
existent parties, witness perjury, falsified complaint
facts to initiate legal proceedings and refusal of the
Connecticut Appellate Courts to address known issues
violate the petitioners Fourteenth Amendment Due
Process and Equal Protection Clauses?

11

PARTIES TO THE PROCEEDING
All parties listed in the caption and Angelo Labbruzzo. The second letter in Mr. Labbruzzo’s name is
an “a” and has been so his entire life. Margaret A. Gaskill, Jennifer B. Fry, Victoria A. Mattoon represented
by Abram J. Heisler at 16 River Street, Second Floor,
Norwalk, CT 06850 were improperly substituted as
plaintiff or intervening plaintiff.
RELATED PROCEEDINGS BELOW
Connecticut Supreme Court
The Estate of James E. Fry et al. v. Angelo P
Lobbruzzo et al., SC 190420 (Conn.) - Defend­
ants Petition for Certification to Appeal de­
nied. No written opinion or redress given by
the Court despite notice of issues.
Connecticut Appeals Court
The Estate of James E. Fry et al. v. Angelo P.
Lobbruzzo et al., 43479 (Conn. Court of Ap­
peals) - Defendants denied stay of execution
of eviction pending appeal. Appeal is fully
briefed and waiting on oral arguments to be
scheduled. Brief is focused lack of subject mat­
ter jurisdiction, and procedural violations
substituting parties outside the fact that rent
was actually paid and a false factual finding
was issued.

Ill

RELATED PROCEEDINGS BELOW - Continued
The Estate of James E. Fry et al. v. Angelo P. Lobbruzzo
et al., 44432
(Conn. Court of Appeals) - JUST FILED ap­
peal to address the refusal of the Trial Court
to apply the CDC Moratorium of Eviction
which Mr. Labbruzzo and Ms. Murray had
lawfully applied for with the Court. If past
history is the best prediction of a Court’s ac­
tion; the Appellate Court will once again deny
Ms. Murray’s request for a stay of the writ of
execution of the eviction scheduled for Decem­
ber 28, 2020 as it did TWICE in case 43479
above.
Connecticut Trial Court Housing Session at Norwalk
The Estate of James E. Fry et al. Angelo P. Lob­
bruzzo et al., NWH-CV19-6004840-S, Order de­
nied 12/8/2020 to address lack of subject
matter jurisdiction with no written justifica­
tion. Order denying CDC Declaration to pro­
tect elderly petitioner 12/1/2020. Execution
for Possession [Eviction” issued 10/28/2020.
Order granting motion terminate stay of exe­
cution of summary process [eviction] issued
11/27/2019.

IV

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED..................................

1

PARTIES TO THE PROCEEDING........................

11

RELATED PROCEEDINGS BELOW....................

11

TABLE OF CONTENTS........................................

IV

TABLE OF AUTHORITIES...................................

Vll

PRELIMINARY STATEMENT..............................

1

INTRODUCTION....................................................

1

OPINIONS BELOW...............................................

2

STATEMENT OF JURISDICTION.......................

4

CONSTITUTIONAL AND STATUTORY PROVI­
SIONS INVOLVED.............................................

4

STATEMENT OF THE CASE................................

5

REASONS FOR GRANTING THE APPLICA­
TION..................................................................... 10
CONCLUSION........................................................

13

APPENDICES
Connecticut Supreme Court, Order on Petition
for Certification to Appeal, Filed September
29, 2020 ............................................................. App. 1

V

TABLE OF CONTENTS—Continued
Page
Superior Court, Housing Session at Norwalk,
Order Denying Motion to Reargue Filed De­
cember 8, 2020.................................................. App. 3
Connecticut Appellate Court, Order Denying
Relief - Denying Stay of Writ of Execution to
Evict Filed February 19, 2020......................... App. 5
Superior Court, Housing Session at Norwalk,
July 3, 2019 Order Denying Dismissal Over
Lack of Subject Matter Jurisdiction Because
Plaintiff Does Not Exist................................... App. 7

VI

TABLE OF AUTHORITIES
Page
Constitutional Provisions
Amendment VII of the United States Constitu­
tion...................................................................... 4,12
Amendment XIV, Section 1 of the United States
Constitution....................................................... 4,11

1
PRELIMINARY STATEMENT
Constitutional rights and the rule of law do not
exist in fact if there is no actual functioning mecha­
nism to enforce those rights and the written rule of
law. There has evolved a de facto two-tiered justice
system in the United States where unread motions
[Judges/law clerks only looking at Docket Sheets] re­
ceive rubber stamped denials of redress by trial and
appellate state courts. Only the elite, due to wealth or
public stature can enforce their Constitutional rights
in the broken state judicial systems.
Herein is an extreme example of how broken the
judicial branch is in the State of Connecticut. Broken
state court judicial systems burden the Supreme
Court of the United States with unnecessary cases
that should have been resolved at the state level.

INTRODUCTION
An elderly lady who in fact paid her rent is to be
evicted December 28, 2020, in the middle of a medical
crisis pandemic in an equity housing action where a
single judge with no jury, gave “credibility” to a land­
lord whose perjury contradicted herself on the stand,
gave “standing” to an entity who does not exist, refused
to require the landlord to fix high radon levels, denied
a motion with no factual finding that required the
Court to dismiss for lack of subject matter jurisdiction
or state on the record what subject matter jurisdiction
the Court has.

2

All three courts denied a stay of execution on writ
of eviction pending appeal despite the great likelihood
that Ms. Murray will be successful on appeal that the
housing court lacked subject matter jurisdiction be­
cause the original plaintiff and defendant do not actu­
ally exist.
Thus, the petitioner having exhausted all other
ways to mediate the damage over being evicted in a
case where the court has no subject matter jurisdiction
seeks redress with United States Supreme Court. This
case should never had to be filed and is an example of
the broken judicial branches in the states where case
law has given Judges full judicial immunity to run
amuck and violate the rule of law without fear of rep­
rimand.

OPINIONS BELOW
The Connecticut Supreme Court is a single page
denial of certification, without a factual finding and
therefore believed to be unpublished. It is SC 190420,
The Estate of James E. Fry et al. v. Angelo P. Lobbruzzo et al. See Appendix 1.
The Connecticut Court of Appeals denied a stay of
the execution of the eviction, TWICE. That case is fully
briefed and ready to be heard for oral arguments. It is
AC 43479, The Estate of James E. Fry et al. v. Angelo
P. Lobbruzzo et al. The landlord is pushing for eviction
to gain leverage over damages owed to the petitioner

3
before the oral arguments take place, thus using
the wrongful threatened eviction as leverage to settle.
A newly filed case addressing the refusal the trial
court to apply the CDC Eviction Moratorium has been
filed with the Connecticut Court of Appeals. Only no­
tice of appeal has been completed. Where the Court of
Appeals denied the stay of execution of the eviction
twice in the original appeal; it is reasonable that the
Court of Appeals will also deny relief again on this is­
sue. The case number is AC 44432. Ms. Murray has
taken all steps possible to get a stay of the eviction cur­
rently scheduled for December 28, 2020.
The trial Court is case NWHCV186004840S Hous­
ing Session at Norwalk in Connecticut, the Estate of
James E. Fry, and Elizabeth A. Fry as the Executrix of
the Estate of James E. Fry v. Angelo P. Lobbruzzo et al.
Original Judgement issued 10/01/2019. Execution for
possession issued Summary Process issued 10/28/2020.
Motion to Reargue application of CDC Moratorium ap­
plication See Appendix 3.
The petitioner exercised extreme measures to mit­
igate being evicted without subject matter jurisdiction
even after she was denied redress by the Connecticut
Supreme Court TO AVOID HAVING to file this Peti­
tion for Certiorari.

4
STATEMENT OF JURISDICTION
The date on which Connecticut Supreme Court de­
cided to deny redress to prevent harm of unjust evic­
tion is 9/29/2020. See Appendix 1. On March 19, 2020
the Supreme Court issued an order that extending all
deadlines to file a petition for Writ of Certiorari in all
cases to 150 days from the date of the lower court judg­
ment. 150 days from 9/29/2020 is February 26, 2021.
This petition being filed in December 2020 is well
ahead of the 150 days in which to file.
Jurisdiction is invoked under 28 U.S.C. § 1257(a).

CONSTITUTIONAL AND
STATUTORY PROVISIONS INVOLVED
Amendment VII of the United States Constitution
In Suits at common law, where the value in
controversy shall exceed twenty dollars, the
right of trial by jury shall be preserved, and
no fact tried by a jury, shall be otherwise re­
examined in any Court of the United States,
than according to the rules of the common law.
Amendment XIV, Section 1 of the United States Con­
stitution
All persons born or naturalized in the United
States and subject to the jurisdiction thereof,
are citizens of the United States and of the
State wherein they reside. No State shall
make or enforce any law which shall abridge
the privileges or immunities of citizens of the

5

United States; nor shall any State deprive any
person of life, liberty, or property, without due
process of law; nor deny to any person within
its jurisdiction the equal protection of the
laws.

STATEMENT OF THE CASE
In retaliation for disclosing to the probate judge of
Estate James W. Fry that Executrix Elizabeth Fry was
withholding good faith offers to purchase 5 Shelia
Lane from the Court; Defendant Elizabeth Fry com­
mitted fraud alleging non-payment of rent for the
month of April 2019 from the Petitioner and her life
partner. A breach of contract was necessary to get
around a “mutual agreement” clause that required
both landlord and renter were required to agree to ter­
minate the contract drafted by Executrix Elizabeth
Fry.1
1 The will of James W. Fry is written with specific provisions
that Executrix Elizabeth Fry does not have to disclose to the
Court the finances of the estate. Had James W. Fry devised his
estate to be in a trust; Elizabeth Fry would have obligation to dis­
close what she has done with the substantial rental payments,
none she has not used to improve the real estate at 5 Shelia Lane.
The probate court allowed the Estate to continue for nearly two
decades where the Executrix Fry unlawfully converted 5 Shelia
Lane into a de facto income producing trust without any fiduciary
disclosure to any authority. Further, Executrix Fry continued a
collateral scheme inducing multiple families to rent 5 Shelia Lane
with promises that they would be able to purchase the property
of which the families in good faith, would make substantive im­
provement to the property. Ms. Murray and her partner Angelo

6

On June 18, 2019 Executrix Elizabeth Fry filed a
complaint in action NWH-CV19-6004840-S. She and
her co-plaintiff was The Estate of James E. Fry et al.
versus Angelo Lobbruzzo et al. There is no Estate of
James E. Fry. The correct name is the Estate of James
W. Fry. Further, Elizabeth Fry sued Angelo Lobbruzzo
who does not exist. The name is Angelo Labbruzzo.
Attorney Mark Katz raised the issue that non­
existent entity does not have standing and therefore,
the Court did not have subject matter jurisdiction
in a motion to dismiss dated July 3, 2020. See
NWHCV186004840S This issue is raised in appeal
that is perfected awaiting oral arguments in AC 43479.
Defendant Elizabeth Fry attorney Abram Heisler
failed to address the issue in his brief filed 8/7/2020.
Mr. Katz’s brief on behalf of Angelo Labbruzzo and
Barbara Murray addressed the issued filed 2/4/2020.
Yet, despite likely to win on appeal elderly Pe­
titioner Barbara Murray, who due to her age is sus­
ceptible to reinfection of Covid-19 faces eviction on
December 28, 2020 because neither the Court of Ap­
peals or the Supreme Court of Connecticut would
grant a stay of execution of the eviction order signed
by the Trial Court.
Labbruzzo are the latest victim of Executrix Elizabeth Fry’s
scheme. The only improvements to the aging property are from
insurance proceeds. None of the rent was used to fix the high ra­
don levels, the rodents problem, the brown well water, or other
issues that made the home non-habitable under Conn. Statute.
The trial court refused to address these issues though they were
raised.

7
BUT THAT ISN’T THE ONLY ISSUE THAT DE­
PRIVES THE TRIAL COURT OF SUBJECT MATTER
JURISDICTION; THERE IS NO ACTUAL INJURY IN
FACT.
Defendant Fry had to have an alleged breach of
contract (non-payment) to initiate the housing court to
escape the clause in the written agreement that it
could only be terminated by both Landlord and renter.
Thus, Defendant Fry falsified INJURY in the com­
plaint filed June 18,2020. She falsely stated that April
2019 rent was not paid knowing full well it was paid in
fact by Petitioner Barbara Murray in a check signed by
Angelo Labbruzzo.
Defendant Fry perjured herself at the September
26, 2019 hearing giving conflicting testimony. At one
point, Defendant Fry testified all rent was paid and
then after coaching from her then attorney, testified a
total of $11,700 was owed by Mr. Labbruzzo and Ms.
Murray. Zero rent was owed by Mr. Labbruzzo and Ms.
Murray at the September 26, 2019 hearing.
BECAUSE THERE WAS NO TESTIMONY other
than the allegation April 2019 rent was not paid in the
complaint; the trial court judge MADE-UP FACTS not
in existence, that cannot be found in the trial tran­
script that petitioner Ms. Murray hadn’t paid rent for

8
the months of April, May, and June 2019 to total
$11,700.2
Elderly Ms. Murray brought all 55 cashed rent
checks with her to the September 26, 2019 and testi­
fied that all rent was paid. Mr. Katz felt no need to en­
ter the checks into the record because Ms. Murray’s
testimony was solid and consistent; Defendant Fry’s
testimony was unambiguously contradictory. The Trial
Court stated it was “confused” in the trial transcript,
then made a false factual finding that April, May, and
June 2019 rent was not paid and that the inconsistent
testimony of Defendant Elizabeth Fry was “credible”
and that Ms. Murray’s testimony was not credible.
Ms. Murray felt the Court of Appeals denied her
stay of execution of eviction on the false factual finding
that rent was not paid on April, May, and June of 2019.
Thus, trying to mitigate the damage of being evicted
before the Court of Appeals finalized its ruling; she
sought review with the Connecticut Supreme Court
supplying that Court copies of the canceled checks
showing that rent was paid and the trial court issued
a false factual finding without subject matter jurisdic­
tion and without injury. She was summarily denied re­
lief without a factual finding. It was at this point she
believed that nobody was reading the pleadings but
summarily relying on docket sheets limited bylines.
December 28, 2020 is the scheduled date for el­
derly Ms. Murray to be evicted from her home in the
2 Elizabeth Fry actually testified that May 19, 2019 was paid.

9
middle of a pandemic. This eviction is based on gro­
tesque errors of law where there is no actual injury,
and no standing of a Plaintiff who doesn’t actually
exist. She has been denied all relief in the Connecticut
Appellate Courts because she honestly believes that
none of the judges or law clerks actually read pleadings
anymore, instead deciding whether to grant relief
based on an excerpt on online docket records because
surely, had the Conn. Appellate Courts read her plead­
ings she would have been granted relief.
The Trial Court has been fully noticed that it is­
sued a false factual finding that rent was not paid for
the months of April, May, and June 2019. The Trial
Court refuses to acknowledge that there is no injury,
and thus no standing despite being noticed. Ms. Mur­
ray has a due process and equal protection right to
have a correct factual finding in any judicial proceed­
ings against her. The Trial Court having the canceled
checks filed in the record still refuses to acknowledge
that the Trial Court judge simply made-up facts that
May and June 2019 rent was not paid to come up with
the total of $11,700 that was testified to after the at­
torney coached Defendant Fry.
Making up facts not in existence and not in trial
testimony simply because the Judge claims he is “con­
fused” in the trial transcript is also a due process and
equal protection violation. Ms. Murray cannot sue the
trial court judge for making up facts not in existence
because judicially created case law protects judicial
misconduct. Further, the failure of the appellate courts
to address these issues upon notice given that there

10
was no stay of execution of the eviction in place; this
too is a due process and equal protection violation.

REASONS FOR GRANTING THE PETITION
In the past twenty-five years there has been an
increase of sanctioned juryless proceedings called pro­
bate court, family court, housing court, domestic vio­
lence courts where a single judge’s opinion is the law
and the facts. Great injustices have come out of these
Courts with no accountability or redress where the ap­
pellate courts give great deference to the single trial
court judge.3 Many of the people harmed in these
Courts believe that if they had been granted a jury in­
stead of a single all-powerful judge; the injustices
would not be as great and poorly functioning judges
would be outed by juries to the community ultimately
leading to the judge’s removal.
As the juryless state administrative courts have
increased, so has the burden on the federal court to ad­
dress the injustice taking place in these administrative
courts. The founders never intended for federal courts
to be gatekeepers to address the abject lawlessness
3 The Connecticut Bar Association declined to hold the origi­
nal attorney accountable for falsifying the complaint that April
2019 rent wasn’t paid. There is zero accountability within the le­
gal system. Either you are part of the legal club, or you are not.
That is the two-tiered justice in place currently. Any errors are
assumed to be made in “good faith” no matter how badly it harms
individuals who are not wealthy, who are not prominent in social
stature, or who are not a member of the legal club.

11
that is taking place in today’s state courts. The duty to
discipline and regulate the state courts is that of the
appellate state courts. The appellate state courts have
clearly abrogated that duty to discipline and regulate
in this action with regards to the scheduled December
28, 2020 writ of eviction to be actually executed.
Here, a state housing trial court has departed so
far from the accepted and usual course ofjudicial pro­
ceedings as to deny Elderly Petitioner Ms. Murray her
due process and equal protection guaranteed under the
Fourteenth Amendment. The Fourteenth Amendment
guarantees that only cases with subject matter juris­
diction can be brought against Ms. Murray; yet, even
with the supervision of the Connecticut Supreme
Court Ms. Murray is being evicted, in a pandemic, in a
case that there is no subject matter jurisdiction for
multiple reasons.
Further, the trial court simply made-up facts not
in the trial transcript that May and June 2019 rent
was not paid when testimony was explicit from De­
fendant Fry that May 2019 was paid. Making up facts
not existent is repugnant to the Due Process and Equal
Protection Clause of the Fourteenth Amendment.
The facts from this housing court case are sim­
ple, unlike most messy litigious family court and do­
mestic violence proceedings making it ideal vehicle to
address the lawlessness in the state courts. This allows
for sweeping exercise of the Supreme Court of the
United States supervisory power over all these out of
control, single judge state court proceedings that are

12
unnecessarily burdening the federal courts where citi­
zens are seeking redress for the injustice that is nor­
mal taking place. The United States Supreme Court
must start requiring the state appellate courts to ad­
dress the lawlessness taking place in the state juryless
trial courts instead of the appellate courts burdening
the federal courts.
Last, the Seventh Amendment clearly says that
equity cases are to be heard by a jury. An equity court
is defined by the law dictionary as one that handled
lawsuits requesting remedies other than damages
such as writs. Here, a writ of execution [eviction] is the
harm that Ms. Murray is trying to mitigate. Thus, the
originals authors of the Constitution knew that a sin­
gle judge deciding equity cases would more likely deny
fundamental rights to litigants, than a jury composed
of one’s peers.
Exactly like Clarence E. Gideon stated in his peti­
tion that the Sixth Amendment guaranteed him the
right to assistance of counsel in a criminal prosecution;
Elderly Ms. Murray asserts the Seventh Amendment
guarantees that she is entitle to a jury of her peers
where she is threatened with a writ of execution of
eviction. Had she been granted a jury then all the is­
sues of standing would have been addressed by the
jury instead of ignored by a judge, who for whatever
reason failed to enforced the rule of law.

13
CONCLUSION
Part of the anger at the Supreme Court refusing
to exercise original jurisdiction over Texas u. Pennsyl­
vania et al., No. 220155 arises of watching 25 years of
“the fix is in” in these state equity single judge cases.
The people no longer trust that justice will be done at
any level in the state and federal judicial systems. For
the foregoing reasons, the petition for a writ of certio­
rari should be granted to unilaterally address these
injustices taking place, known but ignored by state ap­
pellate courts.
Respectfully submitted,
Barbara Murray
Pro Se
5 Shelia Lane
Westport, CT 06880

